No.

19-3965

2.0 -1SHH
IN THE
SUPREME COURT OF THE UNITED STATES

Felicia Ross prose

— PETITIONER

(Your Name)
vs.
Peregrine Health Services et.al

— — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI

TO

filed

MAR 1 3 2021

toss

supreEmeFcourtLm^k

C,RC

RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

FELICIA ROSS
(Your Name)
97. E. interstate
(Address)

received
Bedford , Ohio, 44146
(City, State, Zip Code)
440-241-2383
(Phone Number)

APR 2° 2021

stasis®
RECEIVED
MAR 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Questions Presented

Did the District Courts err by not allowing Due Process?
Did the District Courts err by not considering the rights of a protected citizen in the rule of law
when considering procedural due process?
Did the District Courts properly exercise its ruling of Due Process rule of law considering
Liberty?
Did the District Courts err in not considering counsel? Why would the courts ignore the request
for counsel, when in fact that was the court's reason for dismissing the claim?
Under U.S.C 1915 (e) Defendants claim the case was dismissed.
Did the District Courts properly exercise an unbiased ruling, toward a pro se litigant?
Did the District Courts err, in 28 U.S. Code 1654 appearance personally or by counsel?
Did the District Courts err, by dismissing Ross v. Peregrine Health Services et.al and allowing
Ross's rights as a citizen to be taken away by a Government Agency, (RailRoad Retirement
Board)?
Should asking the Districts Court for counsel, under U.S.C 1915 (d) as a pro se, and the courts
give no answer, to the request and dismiss the case, is that a Violation of Procedural Due
Process?
Did the District Courts respect the legal requirement that is owed to a person under Due
Process Clause?
Did the District Courts err when they overlooked deprivation of Life, liberty, Happiness, or
Property?
Did the District Courts follow equal protection under the law? Substantive due process

Did the District Courts err in not allowing Ohio code 2113.01 to be considered? (Probate Court
Letter). Evidence
Did the District Courts err in not allowing protection from the power of the State?
Should the District Courts give a single definition on what constitutes a pro se defending their
own civil rights?
Did the District Courts overlook the material facts?
Did the District Courts abuse the process? By dismissing the case underl915(d).
Did the District Courts of Appeals for Sixth Circuit follow procedure on appeals 2505.01 (2),(3)
or 2505.02 enforce or protect (Substantial right)?
Did the District Courts dismiss because of lack of standing, the plaintiff had no case, no
evidence?
Did the District Courts err by not allowing Due Process?
Did the District Courts err by not considering the rights of a protected citizen in the rule of law
when considering procedural Due Process Clause.

LIST OF PARTIES
Peregrine Health Services, Inc; McCrea Manor Nursing and Rehabilitation, Murrey Wellington
Funeral Home, Nancy Murrey; Laura Livingston, Aultman Hospital; Embassy Healthcare,
Grande Oaks Nursing Home and Rehabilitation; Cleveland Clinic; Cleveland Clinic South
Pointe; CareSource; United States Railroad Retirement Boardid the District Court err by not
allowing Due Process?

TABLE OF CONTENTS
OPINIONS BELOW..........................
JURISDICTION................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE...................
REASONS FOR GRANTING THE WRIT................
CONCLUSION.........

INDEX TO APPENDICES
APPENDIX A

appendix b
appendix

Un /4c/

CtnU-i?*/ 5'feA'es

C Uni't'^4

APPENDIX D UnGecJ
APPENDIX e
APPENDIX F

S

&5

G

CP lx. r

-A o p jA pp^=e/s *3A 4~ii (A CCjU.)

rf".■O'f'-Afp&zts.... ;Si)dh. [Ci’p&Ajrjr
iS A n toG GcplccG

O /PJTcj

$W« blsi-rU OPufi northern Otttc

Cases
Pierce v. Carskadon, U.S 234 (1872)
Plessy V. Ferguson 18 May 1896)
Brown V. Board of Education !7 May (1954)
Sweatt v. Painter (1950)
Animal Legal Defense Fund v, Glickman, 943 F, Supp. 44 (D,D,C,(1996)
Lochner v. New York 198, U.S. 45 1905.
Hovey v. Elliot 167 U.S. 409 1897,
Kwock Jan Fat v. White 253 U.S 454
Moore v. Dempsey

(1923)

Plako v, Connecticut (1937) 302 U.S, 319
Webster v. Redmond (1980)
Vitek v. Jones (1980) 445 U.S 480
Londenor v. Denver, 210 U.S 373, (1908)
Data Processing Svc. org. v. Camp 397 U.S. 150 (1970)
NAACP v. Button 371, U.S.415 (1963)
Barlow v. Collins 397 U.S. 159 (1970)
Hewitt v. Helms 459, U.S. 460 (1983),
Kwock Jan Fat V. White 253, U.S 454,(1920).
Holmes & Ketcham v. Walton, (1780).

STATUTES AND RULES
Ohio Revised Code 2109.01
14th Amendment Section 1
O.R.C 2903.33
O.R.C 2913.73
O.R.C 2109.02
O.R.C 2913.01
Due Process Clause

Title 2501.01
Title 2113.01
Title 42 U.S.C 1983
Title 42 U.S Code 3617
Rule 38

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR

writ

OF CERTIORARI

Petitioner reSpeetftl.ly prays that a wit of certlorari ^ tQ ^ ^

^

OPINIONS BELOW

For cases from federal courts:
The opinion of the United States
court of appeals appears at Appendix M
the petition and is
[ ] reported at
' ______
[ ] has been designated for publication but i;------ ---------------- ; or,
is not yet reported; or
LX! is unpublished.
The opinion of the United St
ates district court appears at Appendix _B__ _ to
the petition and is
l ] reported at __________
1] has been designated for publication b —------------- -—or,
ut is not yet reported; or,
La] is unpublished.
[ ] For cases from state courts:
The

AppS“et

™ »*» the merits appears at

[ ] reported at ___________________
[ ] has been designated for publication b ------------------------- or,
ut is not yet reported; or,
L 3 is unpublished.
The opinion of the __
appeal’s at Appendix
l 1 reported at____

f]

to the petition and is

for p“n but k Mt « £

court

to

pag e c3

JURISDICTION

QQ For eases from federal courts;
The date
on
October
was

®tates Court of Appeals decided my case

[ 3 No petition for rehearing was timely filed in my ease.
[X] A timely petition for rehearing was denied bv the United States Court of
Appeals on the following date;
October
2020
01
, and a copy of the
order denying rehearing appears at Appendix J
[ ] An extension of time to file the petition for a writ of certiorari
was granted
to and including------------ --------------- (date) on____________
---------(date)
m Apphcation No. __ A
The jurisdiction of this Court iis invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my ease was__
A copy of that decision appeal's at Appendix____
[ 3 A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari
was granted
to and including---------------------- (date) on____________
(date)
in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S.

C. § 1257(a).

page. 3
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment Section 1 Due Process,
28 U.S.C 1915 (a)
28 U. S.C 1915(d)
28 U.S.C 1654
Substantive and Procedural Equal Protection Clause,and Equal Justice
Civil Rights act 1866
Federal Rules of Civil Procedures Rule 38 right to a Jury Trial

O. R.C. 1337.17
O.R.C. 1337.16
O.R.C. 2913.43
O.R.C. 2109.01
O.R.C. 5101.61
O.R.C. 2305.10
O.R.C 2109.04, Fiduciary Bond.
O.R.C 3701.74
O.R.C 3701.78
O.R.C 3727.78
O.R.C 2307.61
O.R.C 2113.01

(Michigan Legislature), Public Health Code ACT Section 333.20201 368, (1978)
28 U.S.C.1915 (e).
Title 42 U.S.C 1983
Title 42 U.S.C 3617

page 4
STATEMENT OF THE CASE
Plaintiff, Felicia Ross, a member of the protected Class by Title VII, Title VI, and the 14th
Amendment filed a claim in The United States District Court Northern District of Ohio on
November 20th, 2017 JUDGE ADAMS.
Plaintiff Filed in the United States Northern District Court of Ohio July 1st, 2019, JUDGE
ADAMS 5:19 CV 1500, for Civil Rights Violations, and Violations of O.R.C. 1337.17, 3721.15,
2913.43, 5101.61, 2305.10, Denial of O.R.C 3701.74 by Defendants, (Michigan Legislature),
Public Health Code ACT Section 333.20201 368,1978, bank accounts closed, personal items,
destroyed family home torn down, Hovey v. Elliot 167 U.S. 409 1897, negligence, theft,
harassment, Intimidation, threats (verbal), mental abuse, physcological abuse, just out right
cruelty for the respect of Liberty toward the Plaintiff. Lochner v. New York 198, U.S. 451905.
The case was dismissed under 28 U.S.C.1915(e). Plaintiff filed in November believing she had a
Right, under 42 U.S.C 1983. Case was dismissed under 1915 (a) (3). Plaintiff Filed an Appeal, a
Filing fee was paid, $505.00 on September 27th, 2019
A Petition for Rehearing was filed on September 13th, 2020, an order was docketed on October
20th, 2020, denying petition for rehearing. A filing fee was paid.
Plaintiff filed in Probate Court to follow court rules and procedures, A JUDGEMENT ENTRY
case #232895 by PROBATE COURT of Stark County, OHIO JUDGE DIXIE PARK, IN RE:
ESTATE of GLADYS K. BROWN (Deceased) was docketed on November 5th, 2018. A Letter of
Authority was appointed on November 27th 2018, case # 232895 a CERTIFICATE OF
APPOINTMENT AND INCUMBENCY which was awarded. O.R.C 2109.04, Fiduciary Bond.

Page 5
Plaintiff suffered tremendous harassment, injustice, Civil Rights violations, (religious) mental
abuse, psychological abuse, verbal threats, while leading up to filing a claim against Defendants
for the denial of O.R.C. 1337.17, O.R.C 3701.74, O.R.C. 2109.02, Ohio Statutes Title 21XXI
Courts Probate, Due process under 28 U.S.C 1915 (a) and 1915(d)
Plaintiff filed a claim against Defendants, for harassment, witnessing torture, Animal Legal
Defense Fund v. Glickman, 943 F. Supp. 44 (D.D.C.(1996), intimidation, mental abuse,
psychological abuse, fraud, deceit, theft, malicious conduct, fraudulent intent, Data Processing
Svc. org. v. Camp 397 U.S. 150 (1970) telephone threats, mental cruelty, constructive fraud
negligence, duress, emotional distress, extrinsic fraud, fraud in the inducement, threats,
violations of Breach of Peace, and denying civil rights as a religious person.
Plaintiff filed a claim as a Civil indigent litigant against Defendants Peregrine Health Services
et.al, and was granted to proceed in Forma Pauperis. Courts deprived plaintiff a pro se of
Liberty without a proper trial, which violates Due Process, Moore v. Dempsey, 261 U.S .86
Londenor v. Denver, 210 U.S 373, (1908)
The Court dismissed the case without prejudice. Plaintiff, pro se, filed an appeal, that case was
dismissed, each case was dismissed because of none attorney credentials. A court appointed
attorney was requested and should have been appointed as (stand by), Barlow v. Collins 397
U.S. 159 (1970) The Courts knew that the Plaintiff specified that she could not get an attorney
because of poverty.
That is a Violation of Due Process. Plaintiff requested a jury, Holmes & Ketcham v, Walton
(1780). The Courts overlooked all the facts that pertained by not allowing evidence to this case.
Hewitt v. Helms 459, U.S. 460 (1983), Violations of Rule 38, demanded, Right to a Jury Trial.

page 6
Plaintiff filed for rehearing, asking the courts for a court appointed attorney if possible, and to
allow evidence, the case was dismissed. Violation of 14th Amendment, Equal protection under
the law. Kwock Jan Fat V. White 253, u.s 454,(1920).
The Courts abused their discretion by applying the wrong legal standard, stand by counsel
should have been appointed, when asked. Plaintiff never waived a request for Counsel. Moore
V. Dempsey 261, U.S 86 (1923)
The Courts were biased because of pro se status, and overlooked what the case was really filed
for and that is injustice, facts against, Government, U.S Railroad Retirement Board, Cleveland
Clinic, CareSource, Peregrine Health Services, Embassy Health Services, Murrey Funeral
Home, all Defendants that are in the list of parties.
Felicia Ross believed that she could file a claim as administrator because of a Probate court
administrator letter. Plaintiff Ross believed by filing in probate that she had standing, NAACP v.
Button 371, U.S.415 (1963) and given the go ahead that she had the right to file as
administrator. Just because a plaintiff files as administrator does not mean that the Courts have
a right to not follow the rules and procedures of the Court of Law, which is Due Process.

Felicia Ross has a claim against Peregrine Health Services et.al for violation of her Civil Rights,
resulting in loss of property, companionship, subjected to harassment, mental, verbal abuse,
fraud, theft, phsycological abuse, torture, humiliation, intimidation..
Felicia Ross was denied Due Process, the rule of law, a fair hearing, and to be heard, as a
protected citizen from criminal laws that may be biased, discriminatory and or otherwise unfair.
The Courts overlooked the filings as pro se, stating the interest of the Plaintiff, was an heir and

Page 7
next of kin, plaintiff meant herself, her interest, no other names were listed. Plaintiff was a next
of kin that is the reason she had rights by the COURT Plaintiff was an heir, that was the reason
she took care of HER AUNT Plaintiff was a next of KIN, That is why she took care of her Family.
Plaintiff filed on her behalf, Plaintiff was violated while taking care of her aunt, we would not be
here today if the defendants allowed the Plaintiff to do her duties by law and as a family
caregiver and provider. (Probate) Plaintiff had rights before Probate, (family rights) (POA rights).
The Courts did not determine poverty was untrue, or that there was a malicious, or frivolous
filing, or no case for standing.
The Courts did not dismiss the case for not stating a claim on which relief can be granted.
The District Court did not ask if Plaintiff needed counsel, while continuing dismissing the case
because of none attorney credentials.
Material factual matter was overlooked in the decision, and offended the basic principles of Due
Process.
A Federal Constitutional aspect of Plaintiffs arguments was ignored.

REASON FOR GRANTING THE PETITION
Plaintiff Felicia Ross, respectfully petitions for a Writ Of Certiorari; to review, United States Court
Of Appeals For the Sixth Circuit, and the United States District Court of The Northern District Of
Ohio, The United States Northern District Of OHIO the Ross v. Peregrine et.al case was filed
twice in the Northern District Of Ohio, on November 20th 2017, and July 01, 2019 in this case
Since this is the Court of last resort I’m asking for a fair trial. Plaintiff has a meaningful
opportunity to be heard,
This is an exceptional circumstance where 28 U.S.C 1915 (d) is concerned.
To send up a case review of Plaintiffs claims, and grant a fair trial.
To avoid erroneous of the right to Due Process, (Substantive and Procedural).
To protect the Plaintiffs Litigation from the mistaken and unjustified deprivation of life, liberty, and
property.
Opportunity for evidence to be presented, and be allowed assistance of counsel. (Stand by
Counsel)
As a citizen of the United States to not be deprived of a fair process.
The opportunity to be heard with the fundamental principles of fairness.
Because justice has not been served.
To make sure Plaintiff as a Civil litigant gets a fair and justice, constitutional process in THE
UNITED STATES OF AMERICA and make sure this never happens again in America.

Biased Court rulings, in regards to pro se litigant Felicia Ross, being treated unfairly by the
judicial system because of poverty.
Felicia Ross, v. Peregrine Health services et.al case should be heard and a Petition for a Writ of
Certiorari should be granted, because of the substantial evidence that needs to be presented.
What makes a process fair? by weighing all the evidence. The Constitution was written for a
purpose and that purpose meant all Citizens who have a right to a fair trial.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

^

'*2^ ^

